                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Examination of Costs Claimed
                     Under Grant AB-83363501
                     Awarded to Lead Remediation
                     Association of America
                     Report No. 13-P-0341                   August 6, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               David Kim
                                                   Lela Wong




Abbreviations

CFR                  Code of Federal Regulations
EPA                  U.S. Environmental Protection Agency
LRAA                 Lead Remediation Association of America
OGD                  Office of Grants and Debarment
OIG                  Office of Inspector General
RRP                  Renovation, Repair and Painting




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency                                                        13-P-0341
                                                                                                                August 6, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Examination of Costs Claimed Under Grant
The U.S. Environmental              AB-83363501 Awarded to Lead Remediation
Protection Agency, Office of        Association of America
Inspector General, conducted
this examination to determine
whether the costs claimed            What We Found
under grant AB-83363501
awarded to the Lead                 We found that LRAA’s financial management system did not meet the standards
Remediation Association of          established under the Code of Federal Regulations at 40 CFR § 30.21. LRAA’s
America are reasonable,             accounting system data was not updated timely. LRAA also made cash draws and
allowable and allocable in          submitted its final federal financial report using the grant budget amounts rather than
accordance with the applicable      actual costs incurred. In addition, LRAA did not maintain source documentation to
laws, regulations and grant         support the costs incurred or claimed.
terms and conditions. The OIG
                                    Title 40 CFR § 30.21(b) requires the recipient’s financial management systems to
also sought to determine
                                    provide accurate, current and complete disclosure of the financial results and to include
whether the objectives of the       records that adequately identify the source and application of funds for federally
grant were met.                     sponsored activities. Title 2 CFR Part 230, Appendix A, Paragraphs A.2(a) and (g), also
                                    require costs to be allocable and adequately documented to be considered allowable
This report addresses the           under an award. LRAA did not meet these requirements.
following EPA Goal and
Cross-Cutting Strategy:             We also found that LRAA did not meet the grant objectives as outlined in the approved
                                    work plan. The work plan requires LRAA to produce and distribute lead safety work
    Ensuring the safety of          practice DVDs, provide lead safety training and workshops, distribute brochures, and
                                    carry out other duties to promote lead safety practices in low-income communities. As of
    chemicals and preventing
                                    the date of our report, 2 years after the grant period end date of June 30, 2011, LRAA
    pollution.
                                    has not produced the required DVDs, provided evidence of brochure distribution, or
                                    completed the required training and workshops.

                                    As a result of the issues noted above, we questioned the $249,870 claimed and
                                    recommended recovery of the $249,882 drawn under the grant.

                                     Recommendations

                                    We recommend that the director of the Office of Grants and Debarment question
                                    $249,870 claimed and recover $249,882 drawn under the grant. We also recommend
                                    that the director verify that LRAA has a financial management system that meets the
                                    federal standards established under 40 CFR § 30.21 prior to any future awards.
For further information, contact
our Office of Congressional and     LRAA generally agreed that it did not have the documentation to meet the federal
Public Affairs at (202) 566-2391.   requirements. However, LRAA disagreed with our recommendation to question the
                                    $249,870 claimed under the grant. LRAA stated that it is entitled to the claimed costs
The full report is at:              because it has done work under the grant and its general ledger showed incurred costs.
www.epa.gov/oig/reports/2013/
                                    Costs recorded in the general ledger without the supporting source documentation do not
20130806-13-P-0341.pdf
                                    meet CFR requirements; therefore, we will continue to question the costs.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                     THE INSPECTOR GENERAL




                                             August 6, 2013

MEMORANDUM

SUBJECT:       Examination of Costs Claimed Under Grant AB-83363501 Awarded to Lead
               Remediation Association of America
               Report No. 13-P-0341


FROM:          Arthur A. Elkins Jr.

TO:            Howard Corcoran, Director
               Office of Grants and Debarment

This report contains time-critical findings that describe the problems the Office of Inspector General has
identified and corrective actions the OIG recommends. This report represents the opinion of the OIG and
does not necessarily represent the final position of the U.S. Environmental Protection Agency. In
accordance with established audit-resolution procedures, EPA managers will make final determinations
concerning matters in this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days or on
December 4, 2013. To expedite the resolution process, please email an electronic version of your
proposed management decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public. If your response
contains such data, you should identify the data for redaction or removal. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
Examination of Costs Claimed Under Grant AB-83363501                                                                 13-P-0341
Awarded to Lead Remediation Association of America


                                  Table of Contents

Chapters
   1    Independent Accountant’s Report ..................................................................                      1

   2    Introduction ......................................................................................................     3

                Purpose .....................................................................................................   3
                Background................................................................................................      3

   3    Financial Management System Did Not Meet Federal Requirements ...........                                               4

                Recommendations .....................................................................................            9
                Recipient Comments..................................................................................             9
                OIG Response ..........................................................................................         10

   4    LRAA Did Not Meet Grant Objectives .............................................................                        11

                LRAA Did Not Produce and Distribute DVDs .............................................                          11
                LRAA Did Not Complete the Required Training .........................................                           12
                LRAA Did Not Meet Other Objectives .......................................................                      12
                Conclusion ................................................................................................     13
                Recommendation .......................................................................................          13
                Recipient Comments..................................................................................            13
                OIG Response ...........................................................................................        13

   5    Other Matter ......................................................................................................     14

   Status of Recommendations and Potential Monetary Benefits .............................                                      15



Appendix
   A    Distribution .......................................................................................................    16
                                  Chapter 1
               Independent Accountant’s Report
            At the request of the U.S. Environmental Protection Agency, Office of Grants
            and Debarment, we have examined the costs claimed by Lead Remediation
            Association of America in its October 18, 2009, final federal financial report for
            grant number AB-83363501.

            By signing the award documents and thus agreeing to the terms set out therein,
            LRAA has accepted responsibility for complying with the requirements of the
            Code of Federal Regulations under 2 CFR Part 230, 40 CFR Part 30, and the grant
            terms and conditions. Our responsibility is to express an opinion as to whether
            LRAA complied with the applicable requirements.

            Our examination was conducted in accordance with the Government Auditing
            Standards issued by the Comptroller General of the United States and the
            attestation standards established by the American Institute of Certified Public
            Accountants. We examined, on a test basis, evidence supporting the amount
            claimed under the grant and performed other procedures we considered necessary
            under the circumstances. We believe our examination provides a reasonable basis
            for our opinion.

            We conducted our fieldwork from March 12, 2013, through August 6, 2013.
            We performed the following steps to obtain an understanding of the project and
            LRAA’s policies and procedures:

                   Interviewed LRAA’s executive director and program manager, as well as
                   its outside certified public accountant.
                   Reviewed written policies and procedures.
                   Reviewed the grant application and approved work plan to identify grant
                   objectives and expected deliverables.
                   Reviewed all source documentation provided by LRAA to determine cost
                   allowability and proper support for meeting grant objectives.

            LRAA is responsible for establishing and maintaining effective internal control
            over compliance with the requirements of 40 CFR Part 30, 2 CFR Part 230, and
            the terms and conditions of the grant. In planning and performing our
            examination, we considered LRAA’s internal control over compliance with the
            requirements listed above as a basis for designing our examination procedures for
            the purpose of expressing our opinion on compliance, but not for the purpose of
            expressing an opinion on the effectiveness of internal control over compliance.
            Accordingly, we do not express an opinion on the effectiveness of LRAA’s
            internal control over compliance.


13-P-0341                                                                                        1
            Our consideration of internal control over compliance was for the limited purpose
            described in the preceding paragraph and was not designed to identify all
            deficiencies in internal control over compliance that might be significant
            deficiencies or material weaknesses; therefore, there can be no assurance that all
            deficiencies, significant deficiencies or material weaknesses have been identified.
            A significant deficiency is a deficiency in internal control, or combination of
            deficiencies, that adversely affects that entity’s ability to initiate, authorize,
            record, process, or report data reliably in accordance with the applicable criteria
            or framework, such that there is more than a remote likelihood that a misstatement
            of the subject matter that is more than inconsequential will not be prevented or
            detected. A material weakness is a significant deficiency, or combination of
            significant deficiencies, that results in more than a remote likelihood that material
            misstatement of the subject matter will not be prevented or detected.

            Our examination disclosed a material weakness concerning LRAA’s
            internal control over compliance with the requirements of 40 CFR Part 30,
            2 CFR Part 230, and the terms and conditions of the grant. Our examination
            disclosed that LRAA’s financial management system did not meet the federal
            standards established under 40 CFR § 30.21. We noted the following issues:

                   Accounting system data was not updated timely.
                   Costs charged to the grant were based on grant budget rather than actual
                   costs incurred.
                   LRAA did not maintain source documentation to support costs incurred or
                   claimed.

            Our examination also disclosed that LRAA also did not meet the objectives of
            the grant. As of the date of our report, 2 years after the grant period end date of
            June 30, 2011, LRAA has not produced the required DVDs, provided evidence
            of the required brochure distributions, or completed the training and workshops
            required under the grant.

            As a result of the issues noted above, we questioned the $249,870 claimed and
            recommended recovery of the $249,882 drawn under the grant. In our opinion,
            because of the effect of the issues described above, the costs claimed in the final
            federal financial report for grant number AB-83363501 do not meet, in all material
            respects, the requirements of 40 CFR Part 30, 2 CFR Part 230, and the grant terms
            and conditions.




            Robert K. Adachi
            Director, Forensic Audits
            August 6, 2013

13-P-0341                                                                                         2
                                  Chapter 2
                                  Introduction
Purpose
            The U.S. Environmental Protection Agency, Office of Inspector General,
            conducted this examination to determine whether the costs claimed under EPA
            grant number AB-83363501 are reasonable, allowable and allocable in
            accordance with the applicable laws, regulations and grant terms and conditions.
            The OIG also sought to determine whether the objectives of the grant were met.

Background
            We initiated this examination at the request of EPA Office of Grants and
            Debarment. During a desk review, OGD identified several areas of concern,
            including lack of internal controls, lack of adequate documentation and project
            results not being achieved. As a result, OGD requested the OIG to conduct a
            review of the grant.

            The EPA awarded the grant to LRAA on September 5, 2007. The total amount of
            the grant is $249,988 with no recipient match requirement. The purpose of the grant
            is to raise lead hazard awareness for children and families in low-income
            communities in the San Francisco Bay Area. The project and budget period was
            from September 1, 2007, to June 30, 2011. LRAA submitted its final federal
            financial report on October 18, 2009, claiming $249,870 in federal expenditures.




13-P-0341                                                                                      3
                                  Chapter 3
            Financial Management System Did Not
                 Meet Federal Requirements
            Our examination disclosed that LRAA’s financial management system did not
            meet the federal standards established under 40 CFR § 30.21. LRAA’s accounting
            system data was not updated timely. LRAA submitted its final federal
            financial report on October 18, 2009. However, when we started fieldwork on
            March 12, 2013, LRAA’s general ledger was not ready for review. In addition,
            LRAA made cash draws and submitted its final federal financial report using the
            grant budget amounts rather than actual costs incurred. LRAA did not maintain
            source documentation to support the costs incurred or claimed.

            Title 40 CFR § 30.21(b) requires the recipient’s financial management systems to
            provide accurate, current and complete disclosure of the financial results and to
            include records that adequately identify the source and application of funds for
            federally sponsored activities. Title 2 CFR Part 230, Appendix A, Paragraphs
            A.2(a) and (g), also require costs to be allocable and adequately documented to be
            considered allowable under an award. LRAA did not meet these requirements. As
            a result, we questioned $227,702 of the $249,870 claimed under the grant and
            recommend recovery of the $227,714 drawn in excess of the allowable project
            costs. Details are summarized in table 1 below.




13-P-0341                                                                                    4
            Table 1: Summary of questioned costs
                                                                     Costs questioned
                                                 Amount
                       Cost category             claimed         Ineligible       Unsupported        Note

            Labor and fringe benefit             $100,590                     -       $100,590         1
            Contract                                40,152                    -         40,152         2
            Equipment                               52,520            $1,219            29,133       3, 11
            Stipend                                 26,700                    -         26,700         4
            Rental payment                           8,500                    -           8,500        5
            Supplies                                 1,288                    -           1,288      6,11
            Travel                                     473                    -             473        7
            Meals and entertainment                    173               173                   -       8
            Other                                   11,513                    -         11,513       9, 11
            Costs claimed in excess of               7,961                    -           7,961
            costs reported in general ledger
            Total project costs                  $249,870             $1,392          $226,310
            Total costs questioned                 227,702
            Allowable project costs                 22,168
            Allowable federal share (100%)          22,168
            Cumulative cash draw                   249,882
            Amount due EPA                       $227,714

        Sources: Amounts claimed are from LRAA’s general ledger and final federal financial report submitted
        to the EPA under the grant. Costs questioned are based on OIG’s analysis of the data.

                Note 1: We questioned labor and fringe benefit costs of $100,590 as unsupported
                        because LRAA claimed these costs based on the grant budget rather than
                        actual costs incurred. LRAA did not provide supporting timesheets or
                        other payroll documentation to substantiate the costs claimed.
                        This practice does not comply with the federal requirements under
                        2 CFR Part 230, Appendix B, Paragraph 8.m. The regulation states
                        “[t]he distribution of salaries and wages to awards must be supported by
                        personnel activity reports…” and “[these] reports must reflect an after-
                        the-fact determination of the actual activity of each employee. Budget
                        estimates (i.e., estimates determined before the services are performed)
                        do not qualify as support for charges to awards.”

                            In response to our discussion draft documents, LRAA acknowledged
                            that it did not have the documentation to meet federal requirements.
                            LRAA stated that it will complete timekeeping procedures by
                            July 15, 2013, to ensure compliance with federal requirements in
                            the future. LRAA claimed to have a spreadsheet of actual hours worked
                            under the grant. However, this spreadsheet was not mentioned during
                            fieldwork, although the OIG specifically asked for supporting

13-P-0341                                                                                                      5
                     documentation for actual hours worked. The spreadsheet was not
                     provided to the OIG for review. As LRAA acknowledged, the
                     spreadsheet also did not meet the federal requirements. We will
                     continue to question the $100,590 as unsupported.

            Note 2: We questioned contract costs of $40,152 as unsupported because LRAA
                    did not provide any documentation to support that these costs were
                    incurred for the grant purpose. The contract costs claimed under the
                    grant consist of payments to companies owned by the executive director
                    and the program manager. LRAA did not provide contracts, invoices or
                    other documents to support the work performed in connection with these
                    contract costs. According to 2 CFR Part 230, Appendix A, Paragraph
                    A.2., to be allowable under a federal award, a cost must be allocable to
                    the award and adequately documented. Paragraph A.4.a.(1) defines
                    allocable costs as costs incurred specifically for the award.

                     LRAA acknowledged that it did not have the documentation to meet
                     federal requirements. LRAA explained that these contract costs were
                     based on the approved budget. However, the budget is an estimate and
                     does not support actual costs incurred. Since LRAA is unable to support
                     the $40,152 claimed, we questioned the costs.

            Note 3: We questioned equipment costs of $1,219 as ineligible and $29,133 as
                    unsupported. The ineligible amount of $1,219 represents a refund for
                    cameras purchased under the grant. According to 2 CFR Part 230,
                    Appendix A, Paragraph A.5.a, credits and refunds should be credited to
                    the federal grant as a reduction to expense or cash refund. However,
                    LRAA did not credit the refund amount to the grant. As result, LRAA
                    overstated the amount claimed by $1,219.

                     The unsupported amount of $29,133 consists of $23,372 for a DVD
                     burner and $5,761 for miscellaneous equipment items. The DVD burner
                     is questioned because LRAA did not conduct cost or price analysis, as
                     required under 40 CFR § 30.45. The regulation states that “[s]ome form
                     of cost or price analysis shall be made and documented in the
                     procurement files in connection with every procurement action.
                     Price analysis may be accomplished in various ways, including the
                     comparison of price quotations submitted, market prices and similar
                     indicia, together with discounts. Cost analysis is the review and
                     evaluation of each element of cost to determine reasonableness,
                     allocability and allowability.” LRAA’s procurement policy also requires
                     cost or price analysis for every procurement action above $500 in value.
                     LRAA only obtained one price quote for the DVD burner. There was
                     no price comparison or other documentation to demonstrate that the
                     price was fair and reasonable. As a result, we questioned $23,372
                     as unsupported.
13-P-0341                                                                                    6
                     The remaining $5,761 equipment costs are questioned as unsupported
                     because LRAA did not provide documentation to support that these
                     costs were incurred for grant purposes. According to 2 CFR Part 230,
                     Appendix A, Paragraph A.2., to be allowable under a federal award, a
                     cost must be allocable to the award and adequately documented.
                     Paragraph A.4.a.(1) defines allocable costs as costs incurred specifically
                     for the award. Since LRAA is unable to support the $5,761 claimed, we
                     questioned the costs.

            Note 4: We questioned stipend costs of $26,700 as unsupported because LRAA
                    did not provide adequate documentation to support the cost claimed.
                    According to 2 CFR Part 230, Appendix A, Paragraph A.2.(g), to be
                    allowable under a federal award, a cost must be adequately documented.
                    The stipends were paid to day laborers as incentives to attend training
                    courses conducted under the grant. LRAA provided a few training
                    sign-in sheets for review, but the sign-in sheets did not include the actual
                    amounts paid, attendee signatures acknowledging receipt of the stipend
                    amount, attendees’ contact information, or any other evidence to
                    substantiate payment and receipt of the stipends. According to LRAA,
                    the training sessions were held at locations not conducive to
                    documentation. Many of the attendees were also unwilling to provide
                    their information, possibly due to questionable immigration status. Since
                    LRAA is unable to support the $26,700 claimed, we questioned the
                    costs.

                     In response to our discussion draft documents, LRAA stated that it will
                     institute procedures to ensure stipend costs are properly documented in
                     the future.

            Note 5: We questioned rental costs of $8,500 as unsupported because LRAA
                    charged arbitrary monthly rental fees to the grant, contrary to federal
                    requirements. According to 2 CFR Part 230, Appendix B, Paragraph
                    43.c, rental agreements between the entity and its key employees are
                    considered less-than-arms-length transactions. As such, the rental
                    agreements LRAA has with its executive director and program manager
                    are less-than-arms-length leases. In such transactions, the grantee is
                    allowed rental costs up to the amount that would be allowed had the
                    grantee owned the property. Paragraph 43.b of the regulation provided
                    examples of allowable expenses for properties owned by the grantee.
                    Examples include depreciation or use allowance, maintenance, taxes and
                    insurance. LRAA charged a flat monthly fee of $500 for each of the two
                    rentals under the grant. The charges were not based on any of the costs
                    allowed under the regulations. As a result, we questioned the $8,500
                    claimed.


13-P-0341                                                                                      7
                     LRAA stated that it was unaware of the federal requirements related to
                     allowable rental costs and that it would have been helpful to have some
                     training on federal regulations from the EPA. However, when LRAA
                     signed the award documents, LRAA has accepted responsibility for
                     complying with the applicable federal requirements. It is LRAA’s
                     responsibility to ensure that staff and management have adequate
                     knowledge of the federal requirements to ensure compliance.

            Note 6: We questioned supplies costs of $1,288 as unsupported because LRAA
                    did not provide documentation to support that these costs were incurred
                    for grant purposes. According to 2 CFR Part 230, Appendix A,
                    Paragraph A.2., to be allowable under a federal award, a cost must be
                    allocable to the award and adequately documented. Paragraph A.4.a.(1)
                    defines allocable costs as costs incurred specifically for the award. Since
                    LRAA is unable to support the $1,288 claimed, we questioned the costs.

            Note 7: We questioned travel costs of $473 as unsupported because LRAA did
                    not provide documentation to support that these costs were incurred for
                    grant purposes. The $473 included costs for car rental and gas.
                    According to 2 CFR Part 230, Appendix A, Paragraph A.2., to be
                    allowable under a federal award, a cost must be allocable to the award
                    and adequately documented. Paragraph A.4.a.(1) defines allocable costs
                    as costs incurred specifically for the award. Since LRAA is unable to
                    support the $473 claimed, we questioned the costs.

            Note 8: We questioned meal and entertainment costs of $173 as ineligible costs
                    because these costs are not allowable under 2 CFR Part 230,
                    Appendix B, Paragraph 14. The regulation states that costs of
                    entertainment, including meals, are unallowable. LRAA also could not
                    provide documentation to support that the $173 was incurred for grant
                    purposes. According to 2 CFR Part 230, Appendix A, Paragraph A.2., to
                    be allowable under a federal award, a cost must be allocable to the
                    award and adequately documented. Paragraph A.4.a.(1) defines allocable
                    costs as costs incurred specifically for the award.

            Note 9: We questioned other costs of $11,513 as unsupported. The $11,513
                    claimed include costs for conferences/conventions/meetings, software
                    purchases, gas, telephone/telecommunications, printing and copying,
                    postage/mailing services, bank service charges, and accounts payable
                    transactions. LRAA did not provide documentation to support that these
                    costs were incurred for grant purposes. According to 2 CFR Part 230,
                    Appendix A, Paragraph A.2., to be allowable under a federal award, a
                    cost must be allocable to the award and adequately documented.
                    Paragraph A.4.a.(1) defines allocable costs as costs incurred specifically


13-P-0341                                                                                      8
                     for the award. Since LRAA is unable to support the $11,513 claimed, we
                     questioned the costs.

            Note 10: We questioned additional costs of $7,961 as unsupported. The $7,961
                     represents the amount claimed in the final federal financial report in
                     excess of the amount recorded in LRAA’s general ledger. The $7,961 is
                     questioned because LRAA did not provide supporting accounting data or
                     source documentation for the amount. According to 2 CFR Part 230,
                     Appendix A, Paragraph A.2.g., to be allowable under a federal award, a
                     cost must be adequately documented. Since LRAA is unable to support
                     the $11,513 claimed, we questioned the costs.

            Note 11: Our review of the bank statements revealed that LRAA received
                     credit/refunds of $2,765 under the grant. The $2,765 included the
                     $1,219 refund for the camera purchase discussed under Note 3 above.
                     The remaining amount consists of $1,292 in check reversals, $244 in
                     office supplies return and $10 in cash back award. According to
                     2 CFR Part 230, Appendix A, Paragraph A.5.a, credits and refunds
                     should be credited to the federal grant as a reduction to expense or cash
                     refund. LRAA did not credit the EPA for the refunds/credits. As a result,
                     the amount claimed is overstated by $2,765. These costs are already
                     being questioned under Notes 1 to 10 above.

Recommendations

            We recommend that the director, Office of Grants and Debarment:

               1. Question the $227,702 claimed under the grant and recover the $227,714
                  drawn in excess of the allowable project costs.

               2. Verify that LRAA has a financial management system that meets federal
                  standards established under 40 CFR § 30.21 prior to any future awards.

Recipient Comments
            The OIG conducted a field exit conference with LRAA and OGD on
            June 5, 2013, to discuss the preliminary audit results. We also provided OGD and
            LRAA with the discussion draft documents on June 4 and 5, 2013, respectively.

            We met with LRAA on June 20, 2013, to obtain its verbal comments on the
            discussion draft. LRAA generally agreed that it did not have the documentation to
            meet the federal requirements. LRAA stated that the lack of documentation was
            mainly due to the fact that LRAA moved its office three times and that most of
            the transactions in question occurred more than 5 years ago. Furthermore, LRAA
            noted that the training sessions for day laborers were held in public parks, parking

13-P-0341                                                                                      9
            lots and other places where the attendees naturally congregate, and not in a formal
            classroom. As such, the environment was not conducive to recordkeeping. LRAA
            also stated that it will update policies and procedures to ensure that federal
            recordkeeping requirements are met in the future.

            LRAA disagreed with our recommendation to question the $227,702 claimed
            under the grant. LRAA stated that it has done work under the grant and its
            general ledger showed over $200,000 of costs incurred; therefore, LRAA is
            entitled to the payment.

OIG Response
            We questioned the $227,702 because LRAA was unable to provide documentation
            to support the costs claimed. Costs recorded in the general ledger without the
            supporting source documentation do not meet the federal requirements of
            2 CFR Part 230, Appendix A, Paragraphs A.2 and A.4; therefore, we will
            continue to question the costs.




13-P-0341                                                                                   10
                                 Chapter 4
             LRAA Did Not Meet Grant Objectives
            LRAA did not meet the grant objectives as outlined in the approved work plan.
            The work plan states that LRAA will produce and distribute lead safety work
            practice DVDs, provide lead safety work practice training and workshops,
            distribute brochures and carry out other administrative duties to promote lead
            safety in low-income communities. As of the date of our report, 2 years after the
            grant period end date of June 30, 2011, LRAA has not produced the required
            DVDs, provided evidence of the required brochure distributions, or completed the
            training and workshops required under the grant. Since LRAA did not complete
            the work under the grant, the EPA should question and recover the $249,870
            claimed under the grant. However, because $227,702 of the $249,870 claimed
            has already been questioned in chapter 3 of this report, we questioned the
            remaining $22,168.

LRAA Did Not Produce and Distribute DVDs
            The approved work plan requires LRAA to produce and distribute 3,750 lead safety
            work practice DVDs for various groups in English and Spanish as well as making
            the film available for download on the internet. The original project period was
            from September 1, 2007, to August 31, 2008, but it has been extended to
            June 30, 2011, through three no-cost time extension amendments.

            As of the date of our report, 2 years after the grant period, LRAA has not produced
            the required DVDs. The executive director said that LRAA produced some films in
            2007 and 2008 according to the approved work plan. However, when LRAA
            learned that the EPA’s Renovation, Repair and Painting Program will issue new
            lead safety guidelines to be effective in 2010, LRAA decided to discontinue the
            filming because it would become obsolete within a year. Instead, LRAA focused on
            obtaining the material to produce films to reflect the new RRP guideline.
            According to the executive director, the filming from 2007 and 2008 is no longer
            available because the external hard drive containing the films crashed in 2010.
            LRAA filmed the videos based on the new RRP guidelines between mid-2011
            and 2012. The videos were posted to YouTube for the EPA’s review in
            January 2012. LRAA revised the videos based on the EPA’s comments and
            provided them in DVD format to the EPA for further comments in December 2012.
            However, based on discussions with the EPA project officer in June 2013, the
            revised DVDs also do not meet the grant requirements.

            According to the executive director, the changes in work plan and deliverables
            were communicated with the EPA project officer verbally. However, LRAA was


13-P-0341                                                                                  11
            unable to provide documentation to support this claim. Title 40
            CFR § 30.25(c)(1)(i) requires any changes in scope and objective of
            the project to be approved by the awarding officer, not the project officer.

LRAA Did Not Complete the Required Training
            The approved work plan for the grant requires LRAA to provide a total of 30
            8-hour lead safety work practice training to property owners, maintenance
            workers, contractors, day workers and those who hire them in order to increase
            their effectiveness in identifying and reducing the likelihood of incidences of
            elevated blood-lead levels in low-income communities. LRAA was also to
            implement and complete a total of 75 one-hour lead safety work practice
            workshops for do-it-yourselfers and contractors. The total expected training hours
            per the work plan is 315 hours. However, LRAA only provided 9 sign-in sheets
            for 4-hour lead safety awareness classes, totaling 36 hours of training.

LRAA Did Not Meet Other Objectives
            The work plan requires LRAA to initially meet with the Association of Bay Area
            Governments, the Bay Area Real Estate Association and other community groups
            in order to create a project champion group and identify a listing of low-income
            communities within each county to be targeted for outreach and training.
            According to the approved work plan, LRAA was to conduct two strategic
            planning training meetings with the champion group to discuss the initiative in
            general and the group’s roles, responsibilities and expectations. LRAA was also
            to hold a regional lead conference. LRAA did not provide evidence to
            demonstrate that these tasks were accomplished.

            LRAA’s executive director said he contacted the Association of Bay Area
            Governments. However, lead problem was not a high priority among the bay area
            governments at the time. The executive director also said he reached out to many
            lead professionals, such as the directors of lead programs at various cities in the
            bay area, with attempts to create a champion group for the cause. He said LRAA’s
            efforts yielded no results due to economic downturn. However, LRAA was unable
            to provide any documentation to support these outreach efforts.

            The work plan also states that LRAA will distribute at a minimum 7,500
            brochures, fact sheets, flyers and other materials to homes and apartments in
            low-income communities, as well as in any natural gathering places within and
            without these communities where building construction workers congregate.
            According to LRAA, training materials downloaded from EPA’s website were
            distributed in training class, not to the general public. However, LRAA was
            unable to provide evidence that the brochures were distributed, in class or to the
            general public.


13-P-0341                                                                                        12
Conclusion
            Since LRAA did not complete the work under the grant, the EPA should question
            the entire amount of $249,870 claimed under the grant. However, $227,702 of the
            $249,870 claimed has already been questioned in chapter 3 of this report. We
            questioned the remaining $22,168 under this section.

Recommendation
            We recommend that the director, Office of Grants and Debarment:

               3. Question and recover the $22,168 claimed under the grant. In the event
                  recommendation 1 is not sustained, the director should question the
                  entire amount of $249,870 claimed and recover the $249,882 drawn
                  under the grant.

Recipient Comments
            The OIG conducted a field exit conference with LRAA and OGD on
            June 5, 2013, to discuss the preliminary audit results. We also provided OGD and
            LRAA with the discussion draft documents on June 4 and 5, 2013, respectively.

            We met with LRAA on June 20, 2013, to obtain its verbal comments on the
            discussion draft. LRAA reiterated that it had done filming in 2007 and 2008.
            LRAA stated that it had recently found a copy of an interview conducted with the
            deputy director of the San Francisco Public Health Department in 2008. LRAA
            also stated that producing and distributing DVDs are tied with the required
            training. According to LRAA, the plan was always to produce the DVDs once the
            EPA approved the films and distribute the DVDs in class.

            LRAA plans to provide more training once the DVDs are approved by the EPA.
            However, LRAA will not be able to complete all training in the work plan due to
            financial constraints. LRAA stated that it originally applied for $500,000 in
            federal funding for the project. However, since the EPA award was only about
            $250,000, LRAA had to try to secure additional funding from other sources.
            However, due to general economic downturn, LRAA was unsuccessful.

OIG Response
            LRAA has not provided documentation to support its claim that the original grant
            budget was $500,000 rather than the award amount of $249,988. Regardless of the
            financial circumstance, when LRAA signed the grant award documents, it agreed to
            complete the work within the award budget of $249,988. Interviewing the deputy
            director of the San Francisco Public Health Department was not part of the work
            plan and does not support the grant objective. Since LRAA did not meet the grant
            objectives, we will continue to question the costs.
13-P-0341                                                                                  13
                                  Chapter 5
                                  Other Matter
            During our fieldwork, it came to our attention that LRAA did not file the
            required tax returns and lost its nonprofit status as a result. We confirmed
            through the Internal Revenue Service that LRAA’s nonprofit status was
            revoked on May 15, 2010. Therefore, LRAA will not be eligible to receive
            nonprofit assistance agreements in the future.

            LRAA’s executive director stated on June 25, 2013, that he has contacted the
            Internal Revenue Service about LRAA’s nonprofit status. The executive director
            stated that LRAA is currently preparing the documents necessary to retroactively
            reinstate its nonprofit status.




13-P-0341                                                                                  14
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                            BENEFITS ($000s)

                                                                                                              Planned
 Rec.     Page                                                                                               Completion   Claimed   Agreed-To
 No.       No.                         Subject                        Status1        Action Official            Date      Amount     Amount

  1        9     Question the $227,702 claimed under the grant          U       Director, Office of Grants                  $228
                 and recover the $227,714 drawn in excess of the                    and Debarment
                 allowable project costs.

  2        9     Verify that LRAA has a financial management            U       Director, Office of Grants
                 system that meets federal standards established                    and Debarment
                 under 40 CFR § 30.21 prior to any future awards.

  3        13    Question and recover the $22,168 claimed under         U       Director, Office of Grants                  $22
                 the grant. In the event recommendation 1 is not                    and Debarment
                 sustained, the director should question the entire
                 amount of $249,870 claimed and recover the
                 $249,882 drawn under the grant.




      1    O = Recommendation is open with agreed-to corrective actions pending.
           C = Recommendation is closed with all agreed-to actions completed.
           U = Recommendation is unresolved with resolution efforts in progress.




13-P-0341                                                                                                                                       15
                                                                                   Appendix A

                                      Distribution
Assistant Administrator, Office of Administration and Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment,
       Office of Administration and Resources Management
Executive Director, Lead Remediation Association of America




13-P-0341                                                                                     16
